<html>
<title> - H.R. 2649, THE SCHOOLS SAFELY ACQUIRING FACULTY EXCELLENCE ACT OF 2003</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




   H.R. 2649, THE SCHOOLS SAFELY ACQUIRING FACULTY EXCELLENCE ACT OF 
                                 2003

=======================================================================

                             FIELD HEARING

                               before the

              SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                   May 24, 2004 in Las Vegas, Nevada

                               __________

                           Serial No. 108-60

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
93-834                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Johnny Isakson, Georgia, Vice        Dale E. Kildee, Michigan
    Chairman                         John F. Tierney, Massachusetts
John A. Boehner, Ohio                Ron Kind, Wisconsin
Thomas E. Petri, Wisconsin           David Wu, Oregon
Michael N. Castle, Delaware          Rush D. Holt, New Jersey
Sam Johnson, Texas                   Betty McCollum, Minnesota
Fred Upton, Michigan                 Carolyn McCarthy, New York
Vernon J. Ehlers, Michigan           Chris Van Hollen, Maryland
Patrick J. Tiberi, Ohio              Tim Ryan, Ohio
Ric Keller, Florida                  Major R. Owens, New York
Tom Osborne, Nebraska                Donald M. Payne, New Jersey
Tom Cole, Oklahoma                   Robert E. Andrews, New Jersey
Jon C. Porter, Nevada                Ruben Hinojosa, Texas
John R. Carter, Texas                George Miller, California, ex 
Phil Gingrey, Georgia                    officio
Max Burns, Georgia


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 24, 2004.....................................     1

Statement of Members:
    McKeon, Hon. Howard P. ``Buck'', Chairman, Subcommittee on 
      21st Century Competitiveness, Committee on Education and 
      the Workforce..............................................     1
        Prepared statement of....................................     3
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada............................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Lark, Carol, Principal, C.P. Squires Elementary, North Las 
      Vegas, Nevada..............................................    10
        Prepared statement of....................................    11
    Rice, Dr. George Ann, Associate Superintendent, Human 
      Resources Division, Clark County Schools, Las Vegas, Nevada     7
        Prepared statement of....................................     9
    Stutz, DJ, President, Nevada State PTA, Member, Board of the 
      National PTA, Las Vegas, Nevada............................    12
        Prepared statement of....................................    14


 
 H.R. 2649, THE SCHOOLS SAFELY ACQUIRING FACULTY EXCELLENCE ACT OF 2003

                              ----------                              


                          Monday, May 24, 2004

                     U.S. House of Representatives

              Subcommittee on 21st Century Competitiveness

                Committee on Education and the Workforce

                           Las Vegas, Nevada

                              ----------                              

    The Subcommittee met, pursuant to call, at 10 a.m., at 
Clark County School District, 2832 East Flamingo Road, Las 
Vegas, Nevada, Hon. Howard P. ``Buck'' McKeon [Chairman of the 
Subcommittee] Presiding.
    Present: Representatives McKeon and Porter.
    Chairman McKeon. A quorum being present, the Subcommittee 
on 21st Century Competitiveness of the Committee on Education 
and the Workforce will come to order.
    We're meeting today to hear testimony on H.R. 2649, the 
Schools Safely Acquiring Faculty Excellence Act of 2003.
    I'd like to thank the Clark County School District for 
hosting this hearing today. I appreciate their hospitality, and 
I'm pleased to be here.
    I'm eager to hear from our witnesses, but before I begin I 
ask for unanimous consent for the hearing record to remain open 
14 days to allow member statements and other extraneous 
material referenced during the hearing to be submitted in the 
official hearing record.
    No objection. So ordered.

    STATEMENT OF HON. HOWARD P. ``BUCK'' McKEON, CHAIRMAN, 
  SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS, COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    Good morning. I'd like to welcome each of you to our 
hearing today to discuss the need for teacher background checks 
and to examine the provisions of H.R. 2649, the Schools Safely 
Acquiring Faculty Excellence Act of 2003, a bill that was 
introduced by my colleague, Congressman Porter, to help keep 
our children safe in the classroom.
    Mr. Porter is new on our Committee. This is his first term 
in Congress and he's already demonstrated great leadership 
ability and has had legislation passed through our Committee, 
so it's really a good opportunity to be here and visit with him 
and his district and to commend you for a wise selection in 
picking him to be your Congressman.
    The success of education reform efforts is increasingly 
seen as directly dependent on the quality of classroom 
instruction and ensuring the quality of America's 3.2 million 
teachers is an essential part of providing an excellent 
education to all our children. A growing number of studies 
provide conclusive evidence that teacher quality is the primary 
school related factor affecting student achievement.
    We held a series of hearings a couple of years ago when we 
were talking about teacher quality and I remember a big 
argument about school class size was very important. But as we 
held those hearings, I asked every one of the witnesses after 
each of those hearings what was the most important part of 
education. Of course the first thing is the parent. But No. 2 
was a quality teacher and it was most important to have, more 
important than the class size, was the quality of teacher.
    Students who are taught by effective and competent teachers 
excel quickly, while those who are assigned to the least 
effective teachers lag behind and often never catch up.
    The bipartisan No Child Left Behind law asks each state, in 
exchange for billions of dollars in Federal teacher quality 
aid, to develop and implement a plan to place a highly 
qualified teacher in every public classroom by the close of the 
2005-2006 school year.
    Since No Child Left Behind was enacted more than 2 years 
ago, Congress and President Bush have continued to provide 
record teacher quality aid to states and local school 
districts, at levels far higher than provided under the 
previous Administration. Federal teacher quality aid has been 
increased by more than 35 percent under President Bush who 
requested nearly 3 billion dollars in annual teacher quality 
funding for states and teachers in his 2005 budget request to 
Congress, compared with just $787 million provided under 
President Clinton's final budget.
    In addition, President Bush and Congress have taken 
numerous steps since the enactment of the No Child Left Behind 
Act to help teachers, local educational agencies, and states 
meet the law's highly qualified teacher provisions and improve 
our nation's teaching force.
    To provide incentives for good teachers to remain in the 
teaching profession, President Bush and congressional 
Republicans in 2002 enacted legislation allowing teachers to 
take a $250 tax deduction when they pay money out of their own 
pockets for classroom expenses, such as crayons and books. We 
are currently working to expand this so-called ``Crayola 
Credit'' to $400 or more.
    During the 108th Congress, the House passed legislation to 
more than triple the amount of Federal student loan forgiveness 
available to highly qualified reading specialists and math, 
science and special education teachers who commit to teaching 
in high-need schools for 5 years.
    The Teacher Recruitment and Retention Act would increase 
maximum Federal loan forgiveness for such teachers from $5,000 
to $17,500.
    In 2003, the House also passed legislation to strengthen 
teacher-training programs at America's colleges.
    The Ready to Teach Act would reauthorize and strengthen 
teacher-training programs under the Higher Education Act to 
ensure tomorrow's highly qualified teachers are prepared to 
meet the needs of the nation's students.
    It is important to note that members of the Committee 
reintroduced these bills last week as part of a competitiveness 
package aimed at helping teachers receive quality training they 
need to improve student achievement.
    Today, the Subcommittee continues its focus on teachers, 
but we are looking at a different issue. The purposes of 
today's hearings are to discuss the need for teacher background 
checks and to examine the provisions of H.R. 2649, the Schools 
Safely Acquiring Faculty Excellence Act of 2003.
    Mr. Porter will talk more about his legislation, but I want 
to thank him for his leadership on this issue and his efforts 
to help ensure that our nation's students are safe in the 
classroom.
    I would like to thank everyone for attending today and I'd 
especially like to thank the witnesses for their participation. 
I look forward to your testimony.
    [The prepared statement of Chairman McKeon follows:]

Statement of Howard P. ``Buck'' McKeon, Chairman, Subcommittee on 21st 
   Century Competitiveness, Committee on Education and the Workforce

    Good morning. I'd like to welcome each of you to our hearing today 
to discuss the need for teacher background checks and to examine the 
provisions of H.R. 2649, the Schools Safely Acquiring Faculty 
Excellence of 2003, a bill that was introduced by my colleague--
Congressman Porter--to help keep children safe in the classroom.
    The success of education reform efforts is increasingly seen as 
directly dependent on the quality of classroom instruction, and 
ensuring the quality of America's 3.2 million teachers is an essential 
part of providing an excellent education to all our children. A growing 
number of studies provide conclusive evidence that teacher quality is 
the primary school-related factor affecting student achievement. 
Students who are taught by effective and competent teachers excel 
quickly, while those who are assigned to the least effective teachers 
lag behind and often never catch up.
    The bipartisan No Child Left Behind law asks each state--in 
exchange for billions of dollars in federal teacher quality aid--to 
develop and implement a plan to place a highly qualified teacher in 
every public classroom by the close of the 2005-2006 school year.
    Since No Child Left Behind was enacted more than two years ago, 
Congress and President Bush have continued to provide record teacher 
quality aid to states and local school districts, at levels far higher 
than provided under the previous Administration. Federal teacher 
quality aid has been increased by more than 35 percent under President 
Bush, who requested nearly three billion dollars in annual teacher 
quality funding for states and teachers in his 2005 budget request to 
Congress--compared with just $787 million provided under President 
Clinton's final budget.
    In addition, President Bush and Congress have taken numerous steps 
since the enactment of the No Child Left Behind Act to help teachers, 
local educational agencies, and states meet the law's highly qualified 
teacher provisions and improve our nation's teaching force.
    To provide incentives for good teachers to remain in the teaching 
profession, President Bush and congressional Republicans in 2002 
enacted legislation allowing teachers to take a $250 tax deduction when 
they pay money out of their own pockets for classroom expenses, such as 
crayons and books. We are currently working to expand this so-called 
``Crayola Credit'' to $400 or more.
    During the 108th Congress, the House passed legislation to more 
than triple the amount of federal student loan forgiveness available to 
highly qualified reading specialists and math, science, and special 
education teachers who commit to teaching in high-need schools for five 
years. The Teacher Recruitment and Retention Act would increase maximum 
federal loan forgiveness for such teachers from $5,000 to $17,500.
    In 2003, the House also passed legislation to strengthen teacher-
training programs at America's colleges. The Ready to Teach Act would 
reauthorize and strengthen teacher-training programs under the Higher 
Education Act to ensure tomorrow's highly qualified teachers are 
prepared to meet the needs of the nation's students.
    It is important to note that members of the Committee re-introduced 
these bills last week as part of a competitiveness package aimed at 
helping teachers receive quality training they need to improve student 
achievement.
    Today, the Subcommittee continues its focus on teachers--but we are 
looking at a different issue. The purposes of today's hearing are to 
discuss the need for teacher background checks and to examine the 
provisions of H.R. 2649, the Schools Safely Acquiring Faculty 
Excellence of 2003.
    Mr. Porter will talk more about his legislation--but I want to 
thank him for his leadership on this issue and his efforts to help 
ensure that our nation's students are safe in the classroom.
    We have a distinguished panel of witnesses for today's hearing. I 
would like to thank each of you for your appearance before the 
Subcommittee and I look forward to your testimony.
                                 ______
                                 
    Chairman McKeon. I would now like to recognize my colleague 
on the Education and Workforce Committee and our host in his 
congressional district, Mr. Porter, for his opening statement 
and to introduce our distinguished panel of witness. Mr. 
Porter.

 STATEMENT OF HON. JON C. PORTER, A REPRESENTTIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Porter. Thank you, Mr. Chairman. I tell you, it's a 
real honor to have the Committee with us today and I appreciate 
your support for Nevada. Coming from our smaller brother-sister 
state of California, but more importantly I understand quite 
well the impacts of growth in Nevada, as do you, with the 
growth and impacts on education in California. So we appreciate 
very much your being here with the Committee.
    When I first heard about the Committee on 21st Century 
Competitiveness, I said what kind of Committee is that? And Mr. 
McKeon made it clear to me that I would find it would be one of 
the most effective Committees in the House working with 
education, with children, with higher education, and I tell you 
it's an honor to serve on the Committee and to serve on 
Education Workforce. There is not a larger need in Nevada than 
education taking care of our kids, so I appreciate your being 
here and what the Committee does.
    We have a number of speakers this morning and I will just 
introduce you briefly, but then before you speak I'll go more 
in-depth.
    First, an individual that really is or should be taking 
credit for this hearing here today. The idea of what we could 
do to make sure that we have teachers that are--that we can 
entrust our children with really came from.
    Dr. Rice, George Ann Rice, who is here this morning, so 
first let me just welcome and thank you, Doctor, for your ideas 
and suggestions.
    Another good friend, Ms. Carol Lark, is here, Principal of 
Elementary School C.P. Squires, and with her, sitting to her 
left, is Mrs. DJ Stutz, who is President of the Nevada PTA. So 
thank you very much for being here.
    Let's talk a little bit about Nevada and some of the 
impacts, and I'm talking to the experts right here, but if I 
could summarize for the Committee and for the record, we are 
one of the fastest growing communities, of course, in the 
country. Five, six, 7,000 people a month moving into Nevada. Of 
course that varies from month to month. A net of possibly 5- or 
6,000 people when you take those that decide to relocate maybe 
to California or some other place, but literally major impacts 
on our community from infrastructure of streets, highways, air 
quality, but health care also falls into those areas of 
challenges, but can you imagine the impact on education with 
the size of growth that we have?
    We need schools for 15- to 16,000 new students a year, and 
I guess from a side note I was sharing this challenge with one 
of my colleagues from Virginia the other day, and we were kind 
of doing a one upmanship on education on who had the most 
challenges and the member said, well, you know, I have 1500 new 
students a year moving into my school district, and I said, 
well, we have 15- or 16,000, and of course the conversation 
just continued, and all of a sudden there was a silence. He 
looked at me and said, what did you say? How many students do 
you have? And I said 15- or 16,000. And he said, well, I guess 
my 1500 really is nowhere compared to your 15- or 16,000.
    And what I've been trying to do, and I believe 
successfully, with our delegation who works very well together 
on educating our colleagues is letting them know the impacts of 
what this really means.
    So not only do we have 15- or 16,000 new students, we need 
2-1/2 schools--Joyce, is that where we are now, 2-1/2 schools a 
month? Two schools a month? Two schools a month. Unheard of. 
And we are actually staying up with that growth and knowing we 
are going to need some additional funding soon for the 
infrastructure. But that brings us to the discussion today.
    Can you imagine in the private sector having to hire 2,000 
or 2,500 new employees a year? I don't care what kind of 
business it is, 2,500 new employees a year is a huge project, 
especially the human resource department, but imagine trying to 
find that many people from your community first, and, of 
course, as a growing community, we don't have enough teachers 
here locally, so we reach out to across the country, but we 
need 2,000 to 2,500 statewide teachers a year. With that the 
challenges of recruitment, getting the messages out, selling 
the community, selling the importance of education in Nevada. 
And as we have hired outside of Nevada, we've learned that as a 
top recruiter in the country, with that comes major challenges.
    And as Nevada is seeking teachers outside of Nevada, we 
must also have the means to determine that none of our faculty 
have pasts that are indicative of behavior that poses a threat 
to our children. And as a parent myself, of course my kids are 
now 26 and 23, but sharing with the district, as I've been a 
member of the state Senate and now the Congress, the challenges 
and the trust that I as a parent put in the school district, I 
trust that as the district is hiring new employees, you're 
doing everything possible to make sure that our children and my 
children will be safe in the school district. But the potential 
physical and psychological damage that a few individuals pose 
to our children in our education system in general requires 
lawmakers and administrators to act so as to remove all 
credible threats to the safety of our nation's children. And 
one of the most common sense actions that we can take is to 
require states in some shape or form to share any information 
on the background of these individuals who will come into close 
contact with our kids.
    With the legislation that we're examining today, and as I 
mentioned, a lot of credit goes to Dr. Rice, I would require 
states to partake in a nationwide information sharing system 
that would provide human resource directors and administrators 
with the background information that they need to hire highly 
qualified and highly ethical individuals to serve in our 
schools.
    The National Crime Prevention and Privacy Compact, and I've 
learned that in Washington we have a lot of titles, a lot of 
long names, but I think it summarizes it well, the National 
Crime Prevention and Privacy Compact, signed into law on 
October 10 of 1998, established an infrastructure by which 
states can exchange criminal records for non-criminal justice 
purposes.
    Now, that was in 1998. Unfortunately, only 21 states have 
currently ratified this compact. While the remaining 29 states 
still have the opportunity to ratify this compact, I believe 
that we must encourage this action with the greatest haste 
possible. By providing a more compelling reason to join the 
compact, H.R. 2649 would close one of the cracks through which 
potentially harmful individuals might slip. And I know that as 
Dr. Rice and the balance of the panel testify, they will 
explain how the process works, but I think it's imperative that 
we hire the best, the brightest, but also the most ethically 
and educated individuals to take care of our children.
    Clark County School District being the sixth largest in the 
country, and probably rapidly moving in on the fifth, I think 
should be complimented for the job that you've done. A 
tremendous challenge before us, and I know that we have 
individuals moving from all over the country, also from here in 
Nevada, but I'd like to applaud the Clark County School 
District for what they've done to stay in front of the growth 
from an infrastructure standpoint, from an education 
standpoint, and now certainly from hiring teachers.
    So with that I'd like to formally introduce the first 
speaker on the panel, if you don't mind, Mr. Chairman.
    Our first witness is Dr. George Ann Rice, and Dr. Rice 
currently serves as Associate Superintendent for Clark County 
Schools in Las Vegas, Nevada, a position she has held for over 
13 years. Before pursuing an education in the legal field and 
practicing law in California, Dr. Rice served as a teacher and 
department Chairman at Western High School here in Las Vegas.
    The prepared statement of Mr. Porter follows:]

Statement of Hon. Jon C. Porter, a Representative in Congress from the 
                            State of Nevada

    Thank you, Chairman McKeon, for calling this important hearing of 
the Education and the Workforce Subcommittee on 21st Century 
Competitiveness. As we examine my legislation, H.R. 2649, the Schools 
Safely Acquiring Faculty Excellence Act of 2003, I urge the 
subcommittee to consider the importance of ensuring that the 
environment our children encounter in their schools is as safe as 
possible. I thank our panel of distinguished guests for their insight 
into the need to ensure student safety and unblemished records of 
faculty and staff. I appreciate their sacrifice of time and their 
ongoing efforts on behalf of the children of Clark County and Nevada.
    I would like to take this opportunity to welcome to this hearing, 
Dr. George Ann Rice, the Associate Superintendent in the Human 
Resources Division of the Clark County School District; Ms. Carol Lark, 
Principal of the C.P. Squires Elementary School; Mr. Ronald Lopez, the 
Deputy Executive Director of the Clark County Education Association; 
and Mrs. DJ Stutz, the President of the Nevada State PTA. I thank you 
all for taking the time to share with the committee the needs you 
perceive for our children in this important matter. I also wish to 
express the gratitude of all Southern Nevadans for the work that you do 
to increase the educational opportunities of our children.
    As the Clark County School District, the nation's sixth largest 
school district, continues to grow at the astonishing rate of 15,000 
students per year, the need for 2,000 new teachers a year poses great 
difficulties. Forced to seek teachers and other staff from outside of 
Nevada, we must have the means to determine that none of our faculty 
have pasts that are indicative of behavior that poses a threat to our 
children. The potential physical and psychological damage that these 
few individuals pose to our children and our education system in 
general requires law makers and administrators to act so as to remove 
all credible threats to the safety of our nation's students. One of the 
most common sense actions that we can take is to require states to 
share any information on the background of these individuals who will 
come into close contact with our children.
    The legislation we are examining today would require states to 
partake in a nation-wide information sharing system that would provide 
human resources directors and administrators with the background 
information that they need to hire highly qualified and highly ethical 
individuals to serve in our schools. The National Crime Prevention and 
Privacy Compact, signed into law October 10, 1998, established an 
infrastructure by which states can exchange criminal records for non-
criminal justice purposes. Unfortunately, only 21 states have currently 
ratified this compact. While the remaining 29 states still have the 
opportunity to ratify this compact, I believe that we must encourage 
this action with the greatest haste possible. By providing a more 
compelling reason to join the compact, H.R. 2649 would close one of the 
cracks through which potentially harmful individuals might slip.
    Mr. Chairman, I thank you again for joining me in Las Vegas and for 
convening this panel of witnesses who can help this committee further 
understand the need to protect our children from any individual who 
might wish them harm. I look forward to working with the committee on 
this important legislation in the future and am anxious to hear the 
testimony of our four witnesses today.
                                 ______
                                 
    Mr. Porter. So I'd like to welcome again Dr. George Ann 
Rice, and thank you very much, we appreciate your testimony.

  STATEMENT OF DR. GEORGE ANN RICE, ASSOCIATE SUPERINTENDENT, 
            CLARK COUNTY SCHOOLS, LAS VEGAS, NEVADA

    Dr. Rice. Good morning, Mr. Chairman, Mr. Porter, and 
counsel.
    I am George Ann Rice, the Associate Superintendent of the 
Human Resources Division for the Clark County School District. 
I am ultimately responsible for the staffing of all of the 
positions in our district. We have approximately 15,500 
teachers, 1,000 administrators, and 9,000 support staff 
district-wide, plus temporary people and substitutes.
    I am pleased to testify on behalf of the Clark County 
School District, as Mr. Porter mentioned, the sixth largest 
district in the country, soon to be the fifth largest district. 
I have to believe that I am testifying, however, on behalf of 
school districts throughout the country that are not even aware 
that this problem exists.
    The Clark County School District, as Mr. Porter has pointed 
out, is a rather unique school district. We are central city 
school district, a suburban school district, and a rural school 
district, all in one. Our service area of Clark County covers 
7,910 square miles, which is roughly the size of Connecticut 
and Delaware put together. We have 289 schools, 197 in Las 
Vegas, 70 schools in the surrounding suburban area, and 22 
outside the metropolitan area in rural Clark County.
    To keep pace with our rapid growth the Clark County School 
District opens on the average in the past a new school each 
month. We are scheduled to open 14 new schools in August, and 
since 1986 we have built 157 new schools.
    Each year we must higher approximately 2,000 new teachers, 
600 of whom are hired due to teacher turnover, the remainder 
because of our growth and because of our own teacher 
retirements. We have hired approximately 8,000 teachers over 
the past 5 years and project to hire 10,000 more over the next 
5 years.
    We have two state universities, UNLV and UNR. We have one 
state college, Nevada State College, which is 2 years old, and 
also a small presence of private preparation programs of 
private colleges here. During the very best years, in 
combination they produce approximately 600 of the 2,000 
teachers that we need each year.
    We are forced to go to other states to recruit the 
remaining 1,400 teachers we require each year. Recruiting for 
the 2004-2005 school year, we have made 166 trips out of the 
state and held 107 full days of interviewing right here on our 
own site. We require that every person that we hire, and 
volunteers, be fingerprinted. These fingerprints of sent 
through our own school police through the Nevada Central Crime 
Repository, our Nevada Highway Patrol, to the FBI. We have 
believed all of these years that when we received a copy of an 
FBI report, that we had the candidate's complete arrest and 
conviction history from all states. I think all school 
districts are under that assumption. We recently learned that 
not all states submit their criminal records to the FBI for 
non-criminal justice purposes such as employment inquiries by 
school districts.
    At first we considered eliminating our recruiting from any 
state that had not released these records. However, we realized 
that this action would be meaningless because of the mobility 
of our population in the United States. We must have access to 
records from all states.
    All school districts are hiring teachers, administrators 
and support staff who will spend hours each today working with, 
supervising, and guiding children. These same people will each 
day be alone with these children. It is imperative that school 
districts be aware of any and all contacts candidates have had 
with any law enforcement agencies for any felony, for any 
arrest that involves violence, controlled substances, child 
abuse, sexual misconduct, and so on.
    If the school districts around the country were aware of 
the limited nature of the information they are being given from 
their FBI inquiries, they would all be here, I'm sure, en masse 
to testify.
    I might tell you other things that we do on our 
application, we ask the candidates approximately 20 questions 
regarding any contact that they have had with law enforcement 
that's self reporting. Then we ask every reference to whom we 
send professional references inquiries concerning their 
professional competence, and on those inquiries we will also 
list the very same question, do you have any reason to believe, 
and then we list that this person has ever been arrested, 
charged or convicted of a felony of a violence related offense, 
of a sex related offense, of a domestic or violence related and 
also drug-related offense. We ask every applicant, every 
reference, but it is the FBI reports that we were relying upon 
to ensure that we were getting accurate information.
    I would like to thank you for the opportunity to address 
you on this critical bill and to suggest that if you're looking 
at things that might enable the bill to have--to have better 
success with larger groups within the Congress, we might look 
at a different penalty or a modification of the penalty for not 
complying. It might be that we will have opposition on tying 
compliance with educational funding where if there was maybe a 
different penalty, that those people would come along.
    Also, I think that in today's atmosphere, it might be good 
to consider the suspicion part because there will be a lot of 
people who will step up against that, and I would certainly, I 
think we all would certainly see, hate to see this bill maybe 
doomed because of those things that really do not--are not part 
of the guts of the bill, which is letting us know about those 
arrest charges and convictions.
    Thank you again for the opportunity to testify.
    Chairman McKeon. Thank you.
    [The prepared statement of Dr. Rice follows:]

   Statement of Dr. George Ann Rice, Associate Superintendent, Human 
      Resources Division, Clark County Schools, Las Vegas, Nevada

    Good morning, Mr. Chairman and members of the committee.
    I am Dr. George Ann Rice, the Associate Superintendent of the Human 
Resources Division for the Clark County School District in Las Vegas, 
Nevada. I am ultimately responsible for staffing the positions in our 
district. We have approximately 15,000 teachers, 1,000 administrators, 
and 9,000 support staff employees district-wide, plus temporary people 
and substitutes.
    I am pleased to testify today on behalf of the Clark County School 
District, the 6th largest district in the country, soon to be the 5th 
largest. I have to believe that I am testifying on behalf of school 
districts throughout the country, which are not even aware that this 
problem exists.
    The Clark County School District is a rather unique school system. 
We are a central city school system, a suburban school system, and a 
rural school system all in one. Our service area of Clark County covers 
7,910 square miles, which is roughly the size of Connecticut and 
Delaware combined. We have 289 schools: 197 in the Las Vegas, 70 
schools in the surrounding suburban area, and 22 schools outside the 
metropolitan area in rural Clark County.
    To keep pace with our rapid growth, the Clark County School 
District opens the average of a new school EACH MONTH. We are scheduled 
to open 14 new schools in August. Since 1986, we have built 157 new 
schools.
    Each year, we must hire approximately 2000 new teachers--only 600 
of whom are hired due to teacher turnover, the remainder because of our 
growth and our own teacher retirements. We have hired 8,000 new 
teachers over the last 5 years, and project to hire 10,000 new teachers 
over the next 5 years.
    We have two State universities UNLV and UNR. We have one state 
college, Nevada State College, which is two years old and also a small 
presence of private teacher preparation programs. During the very best 
years, they produce in combination only 600 of the 2000 teachers we 
need each year.
    We must go to other states to recruit the remaining 1400 teachers 
we require each year. Recruiting for the 2004-2005 school year, we have 
made 166 trips out of state and held 107 full days of interviewing on 
this site. We require that every person we hire be fingerprinted. These 
fingerprints are sent through our school police through the Nevada 
Central Crime Repository (Nevada Highway Patrol) to the FBI. We have 
believed that when we receive a copy of the FBI report that we have a 
candidate's complete arrest and conviction history from all states.
    We recently learned that not all States submit their criminal 
records to the FBI for non-criminal justices purposes; such as 
employment inquiries by school districts.
    At first, we considered eliminating from our recruiting schedule 
any state that has not released its records. However, we realized that 
action would be meaningless because of the mobility of our population 
in the United States. We must be able to access these records from all 
states.
    All school districts are hiring teachers, administrators, and 
support staff who will send hours each day time working with, 
supervising, and guiding children. These same people will each day be 
alone with those children. It is imperative that school districts be 
aware of any and all contacts candidates have had with any law 
enforcement agencies for any felony, or any arrest, that involves 
violence, a controlled substance, child abuse, and sexual misconduct 
and/or abuse.
    If schools districts around the country were aware of the limited 
nature of the information they are receiving from their FBI inquiries, 
they would all be here today eager to testify.
    Thank you for the opportunity to address you on this critical bill.
                                 ______
                                 
    Chairman McKeon. If you could introduce our next--
    Mr. Porter. Sure. Thank you, Mr. Chairman.
    I'd also like to enter for the record a copy of some 
newspaper articles, without objection, from the Chairman, 
throughout the Las Vegas area, on some challenges that we've 
had here locally, for the record. Thank you.
    Chairman McKeon. No objection. So ordered.
    Mr. Porter. Thank you.
    [The information referred to has been retained in the 
Committee's official files.]
    Mr. Porter. Next we have Miss Carol Lark. Ms. Lark 
currently serves as Principal of C.P. Squires Elementary School 
in North Las Vegas, Nevada. A former recruiter of teachers for 
Clark County schools, Miss Lark has used her public relations 
skills to build beneficial partnerships with businesses and 
community organizations. With Blue Cross/Blue Shield funding, 
Miss Lark administered a pilot program that provided free 
onsite dental care to more than a thousand children.
    We could list another hundred different successes of Ms. 
Lark, who was Principal of the Year last year, but please 
welcome Ms. Lark.
    Thank you very much.

  STATEMENT OF CAROL LARK, PRINCIPAL, C.P. SQUIRES ELEMENTARY 
                SCHOOL, NORTH LAS VEGAS, NEVADA

    Ms. Lark. Thank you very much.
    It is indeed an honor to address this important legislative 
Committee. My name is Carol Lark, and I am principal of an 
elementary school here in North Las Vegas, Nevada. I have 945 
students; 91 percent are on free and reduced lunch, 86 percent 
of our children are Hispanic. We are a full Title 1 School, and 
I wish to take a moment just to tell you how much we appreciate 
the funds you do provide to our Title Schools.
    I am here today to testify on behalf of the Schools Safely 
Acquiring Faculty Excellence Act of 2003. Only recently did I 
learn that only 21 states have ratified the National Crime 
Prevention and Privacy Compact. In all honesty, I was shocked. 
I've been an administrator in Nevada for the past 14 years, and 
I've always assumed that when prospective teachers were 
fingerprinted, we could be rest assured that at the very least 
they did not come to us with felonies on their records. 
Unfortunately, interviews and reference checks will often not 
reveal such information. Professionals are becoming more and 
more reluctant to share negative information about employees 
out of fear of being sued. Fingerprinting was the one objective 
factual bit of information that we should have access to when 
selecting teachers.
    A few years ago I spent 7 days in an arbitration attempting 
to remove a teacher based on performance alone.
    When the arbitrator asked me if I had any last words, I 
told him that if he were to reverse my decision, then he should 
have to put his own child or his own grandchild in that 
classroom. And I think the same principle applies here.
    The only plausible reason that I can imagine for not 
cooperating must be financial. I am sure that entering the data 
would require a certain amount of manpower and womanpower. But 
nevertheless, I doubt you could find a taxpayer alive that 
would not support this legislation. I would much prefer to 
dodge potholes in the road than allow sexual predators in my 
child's classroom.
    Six years ago, when I moved to my at-risk school, I hired 
23 teachers from all over the country, and I have hired many 
more since. I knew that each one of them had to be 
fingerprinted, and I felt secure in believing that they had no 
criminal record. To find out now that I was wrong is very 
disturbing.
    Clark County is presently the sixth largest district in the 
Nation and we probably have teachers from every state in the 
union. We are growing so fast that we are constantly 
prioritizing our priorities, but never have we questioned the 
importance of cooperating with the FBI in an area as serious as 
our children's safety.
    I urge you to pass this legislation as quickly as possible. 
Our children's safety is at stake. If we are to leave No Child 
Left Behind, let us address their safety as well as their 
academic achievement.
    I thank you for this opportunity to testify.
    Chairman McKeon. Thank you.
    [The prepared statement of Ms. Lark follows:]

Statement of Carol Lark, Principal, C.P. Squires Elementary, North Las 
                             Vegas, Nevada

    It is indeed an honor to address this important legislative body. 
My name is Carol Lark and I am Principal of an elementary school in N. 
Las Vegas, Nevada. I have 945 students and we are 91% free and reduced 
lunch and 86% Hispanic. We are a full Title 1 School and we truly 
appreciate the funds provided to Title 1 schools.
    I am here today to testify on behalf of the ``Schools Safely 
Acquiring Faculty Excellence Act of 2003''. Only recently did I learn 
that only 16 states have ratified the National Crime Prevention and 
Privacy Compact. In all honesty, I was shocked. I have been an 
administrator in Nevada for the past 14 years and I have always assumed 
that when prospective teachers were fingerprinted, we could rest 
assured that at the very least, they did not come to us with a felony 
on their records. Unfortunately, interviews and reference checks will 
often not reveal such information. Professionals are becoming more and 
more reluctant to share negative information about employees out of 
fear of being sued. Fingerprinting is the one objective, factual bit of 
information that we should have access to when selecting teachers.
    A few years ago I spent seven days in an arbitration attempting to 
remove a teacher based on performance alone. When the arbitrator asked 
me if I had any last comments, I told him that if he were to reverse my 
decision, and keep that teacher in the classroom, then he should have 
to put his own child, or his grandchild in that classroom. The same 
principle applies here.
    The only plausible reason that I can imagine for not cooperating, 
must be financial. I am sure that entering the data would require a 
certain amount of manpower. Nevertheless, I doubt that you could find a 
taxpayer alive that would not support this legislation. I would much 
prefer to dodge potholes in the road, than allow sexual predators in my 
child's classroom.
    Six years ago, when I moved to my at-risk school, I hired 23 
teachers from all over the country and I have hired many more since 
then. I knew that each of them had to be fingerprinted, and I felt 
secure in believing that they had no criminal record. To find out now, 
that I was wrong, is very disturbing.
    Clark County is presently the sixth largest district in the nation 
and we probably have teachers from every state in the union. We are 
growing so fast that we are constantly prioritizing our priorities, but 
never have we questioned the importance of cooperating with the FBI in 
an area as serious as our children's safety.
    I urge you to pass this legislation as quickly as possible. Our 
children's safety is at stake. If we are to leave No Child Left Behind, 
let us address their safety and as well as their academic achievement. 
I thank you for this opportunity to testify.
                                 ______
                                 
    Chairman McKeon. Mr. Porter.
    Mr. Porter. Thank you, Mr. Chairman.
    Next we have Mrs. Stutz. Mrs. Stutz serves as President of 
the Nevada State PTA, is a member of the board of the National 
PTA. In addition to her more than two decades serving with the 
PTA, Mrs. Stutz works for the Clark County Parenting Project 
and teaches early morning seminary classes.
    Also, a side note, there isn't anyone involved in the 
community like Mrs. Stutz. We appreciate everything you've done 
all these years, and fully two decades you've touched and 
changed a lot of lives. So thank you very much, and we 
appreciate you being here this morning.

STATEMENT OF DJ STUTZ, PRESIDENT, NEVADA STATE PTA, LAS VEGAS, 
                             NEVADA

    Ms. Stutz. Thank you very much, and I too thank you for 
allowing me the time to provide you some information and points 
of view from the prospective of PTA. Nationally, PTA represents 
almost 6 million members, all of whom are concerned with the 
welfare and education of our nation's children. And one of the 
five purposes of this organization is to secure adequate laws 
for the care and protection of children and youth.
    On a side note, just last January representatives from all 
54 Congresses of National PTA identified making our children 
competitive in the 21st Century as one of the top three 
priorities for PTA nationally, and so I am excited about the 
work that your Committee does.
    As a national organization, we are very serious about 
properly representing the voice of our membership. Our motto is 
``every child, one voice'' and it is out of our belief in this 
motto that we work diligently with our membership as we develop 
the positions that we take. It was only after much research, 
deliberation, and finally a vote on our convention floor by the 
delegates of this organization that the resolution that I have 
attached to this statement was accepted as an official position 
of National PTA. And the name of that resolution is Background 
Checks on Teachers.
    As you may note, it is our position, supported by our vast 
membership, that background checks on teachers before the 
issuance or renewing of a license or permit be completed by the 
appropriate agencies. Our resolution also states that we 
encourage the cooperation between Treasury Departments and 
Teacher Licensing agencies in the investigation of background 
checks on teachers. Let me tell you how pleased we are to see 
that this important issue has come to the forefront of your 
Committee.
    On a personal note, as the mother of four, grandmother of 
two, soon to be three, and the aunt of 67 children, I have to 
admit that I--and I have to admit that I've lost track of how 
many great grandnieces and nephews that I have strewn 
throughout this great nation, I have a huge personal investment 
in the education process and the protection of our most 
precious national treasure, our children. It has been with 
great dismay that I have heard the news reporting on the 
molestation of children by teachers or personnel in the school 
district where my children and many of my nieces and nephews 
attend school. It is even more alarming when the reports state 
that this person has had a history of such behavior in other 
states that was not reported during the background checks. In 
my mind, these were preventable incidences. Every child, each 
precious face that we see as a victim of such a horrific crime, 
deserves the assurance that such things will never happen 
again, not to them, not to anyone else. I am mournful that any 
of these incidences should occur. And while I realize that we 
realistically cannot prevent such--all such outrages from 
transpiring, it is imperative that we as a society do all that 
we can to responsibly protect our nation's children from such a 
travesty.
    That being said, I would like to draw attention to three 
issues that I believe could improve this bill. The first is in 
Section 3, it's on page 3, lines 22 and 23, letter A. ``The 
identity of each individual so arrested, charged or 
convicted.'' My concern with this clause is that there are many 
individuals who are arrested and charged with a crime but never 
convicted. History is resplendent with examples of people 
falsely accused, people who have had to leave their homes and 
careers due to the repercussions of false accusations or 
misunderstandings. And I believe that the standard of 
``innocent until proven guilty'' is a standard worthy of this 
great country.
    Secondly, I'm concerned by Section 3 which is on page 3, 
lines 24 and 25, identified by letter B, ``The identity of each 
individual under suspicion of such an offense.'' This 
subsection brings my concerns just stated to a new level.
    Now, not only do you not have to be convicted, charged or 
even arrested, but merely the suspicion of misconduct would 
scar a record. I'm aware, as students are, that a cry of foul 
can turn the tables very quickly for a teacher deemed as 
unfair, tough, or just unliked. Just as it is important to have 
each concern fully investigated, it is also important to 
protect the ability of an individual to care and provide for 
his or her family if suspicions turned out to be unfounded.
    The final concern is that I don't see an appeals process 
should an unfavorable report be found. For example, my son in-
law is named Michael Smith. The phone book tells me that there 
are 41 Michael Smiths with published phone numbers in Clark 
County alone. Confused identity being only one of a plethora of 
possibilities of a wrongly unfavorable report, there must be 
some mechanism for appeal.
    I thank you for bringing this bill forward. Quite honestly, 
I've been deeply saddened as I have had to explain to my 
children, boys and girls alike, to watch for signs of improper 
advances from all kinds of adults who should be guarding them 
from such. While I believe that even if this bill passes, the 
need for such warnings will still exist, I am hopeful that we 
can find our way to a society that honors, cherishes, and 
treasures the only asset that truly matters in this nation, or 
in the world for that matter, our children.
    Thank you.
    [The prepared statement of Ms. Stutz follows:]

  Statement of DJ Stutz, President, Nevada PTA, Member, National PTA 
                           Board of Directors

    I thank you for allowing me the time to provide you information and 
points of view from the perspective of PTA. Nationally, PTA represents 
almost 6 million members, all of whom are concerned about the welfare 
and education of our nation's children. One of the five purposes of 
this organization is ``To secure adequate laws for the care and 
protection of children and youth.''
    As a national organization, we are very serious about properly 
representing the voice of our membership. Our motto is ``every child, 
one voice.'' It is out of our belief in this motto that we work 
diligently with our membership as we develop the positions that we 
take. It was only after much research, deliberation, and finally a vote 
on our convention floor by the delegates of this organization that the 
resolution I have attached to this statement was accepted as an 
official position.
    As you may note, it is our position, supported by our vast 
membership, that background checks on teachers before the issuance or 
renewing of a license or permit. . . be completed by the appropriate 
agencies. Our resolution also states that we ``encourage the 
cooperation between Treasury Departments and Teacher Licensing agencies 
in the investigation of background checks on teachers.'' Let me tell 
you how pleased we are to see this important issue come to the 
forefront of your committee.
    On a personal note, as the mother of four, grandmother of two soon 
to be three, and the aunt of 67, and I have to admit that I've lost 
track of how many grand nieces and nephews I have strewn throughout 
this great nation. Therefore, I have a huge personal investment in the 
education process and the protection of our most precious national 
treasure, our children. It has been with great dismay that I have heard 
the news reporting on the molestation of children by teachers or 
personnel in the school district where my children and many of my 
nieces and nephews attend school. It is even more alarming when the 
reports state that this person has a history of such behavior in other 
states that was not reported during the background checks. In my mind, 
these were preventable incidences. Every child, each precious face that 
we see as a victim of such a horrific crime, deserves the assurance 
that such things will never happen again. Not to them, not to anyone 
else. I am mournful that any of these incidences should ever occur. 
While I realize that we realistically cannot prevent all such outrages 
from transpiring, it is imperative that we, as a society, do all that 
we can to responsibly protect our nation's children from this travesty.
    That being said, I would like to draw attention to three issues 
that I believe need to be changed to improve the bill. The first is in 
Section 3, page 3, lines 22 and 23: ``(A) the identity of each 
individual so arrested, charged, or convicted.'' My concern with this 
clause is that there are many individuals who are arrested and charged 
with a crime, but never convicted. History is resplendent with examples 
of people falsely accused ``people who have had to leave their homes 
and careers due to repercussions of these false accusations or 
misunderstandings. I believe the standard of ``innocent until proven 
guilty'' is a standard worthy of this great country.
    Secondly, I am concerned by Section 3, page 3, lines 24 and 25: 
``(B) the identity of each individual under suspicion for such an 
offense.'' This subsection brings my concerns just stated to a new 
level. Now, not only do you not have to be convicted, charged, or even 
arrested, but merely the suspicion of misconduct would scar a record. I 
am aware, as are students, that a cry of foul can turn the tables very 
quickly for a teacher deemed as unfair, tough, or just unliked. Just as 
it is important to have each concern fully investigated, it is also 
important to protect the ability of an individual to care and provide 
for his or her family if suspicions turn out to be unfounded.
    The final concern is that I do not see any appeals process, should 
an unfavorable report be returned. For example, my son-in-law is named 
Michael Smith. The phone book tells me that there are 41 Michael Smiths 
with published phone numbers in Clark County alone. Confused identity 
being only one of a plethora of possibilities of a wrongly unfavorable 
report, there must be some mechanism for appeal.
    I thank you for bringing this bill forward. Quite honestly, I have 
been deeply saddened as I have had to explain to my children, boys and 
girls alike, to watch for signs of improper advances from all kinds of 
adults who should be guarding them from such. While I believe that even 
if this bill passes, the need for such warnings will still exist, I am 
hopeful that we can find our way to a society that honors, cherishes, 
and treasures the only asset that truly matters in this nation, or in 
the world for that matter, our children.
                                 ______
                                 
    Chairman McKeon. Thank you. Excuse me. Thank you very much. 
7,900 square miles, about the size of Connecticut and Delaware. 
I was in Delaware last weekend giving a graduation speech, and 
I was talking to some of the people there and they said it's 
about a 2-hour drive from top to bottom, and I thought, my 
district goes from north LA County to above Bridgeport. It 
comes to Nevada. So we're neighbors, and that's why it's good 
to be here with you, but our district from top to bottom is 
about 450 miles and a couple of hundred miles east to west, and 
I come from the fastest growing part of LA County, Santa 
Clarita, and I thought we were, you know, we were having real 
growth problems because we had to add a few schools. We are 
nowhere near what you're facing here.
    Then I go to the north, which is very rural, and have Inyo 
County, and we have a problem there just trying to get enough 
children to fill the schools. We have a school that was built 
for a hundred kids, we have 60 kids. We have 500 children in 
one school district spread over about 3,500 square miles. Very 
difficult. So I see very rural and I see very, very rapid 
growth in a much denser population. So I think I understand a 
little of what you're going through in your school district.
    I am really, really glad that I'm here today and I've had a 
chance to hear this testimony because, you know, in Congress we 
have 435 members in the House of Representatives, we represent 
all kinds of districts, and we get involved in our particular 
subject, and some of us become quite familiar with--like I 
chair this Subcommittee on higher education, and I've really 
gotten involved over the 12 years I've been in Congress in 
those issues, but this is something I've never even heard about 
until today, and I was on a school board for 9 years before 
coming to Congress, and I guess I just took for granted that we 
were able to do background checks.
    Although I was kind of questioning how you're able to ask 
all these questions because I come from a business background 
and I've hired people, and I know that you can only ask--
legally now we can't ask questions really except ``Are you 
alive?'' ``Will you perhaps show up if we hire you?'' I mean, 
it's so vague on what you really can ask people that I wasn't 
aware that you were able to ask all of these kinds of questions 
when you hire someone.
    Can you explain how that works?
    Dr. Rice. Mr. Chairman, members of the Committee, there has 
been case law in our state that says when people work directly 
with children, that we are able to ask these questions.
    Chairman McKeon. That's just a state law.
    Dr. Rice. There is case law in our state and so our 
questions have been approved by our legal department and there 
are about 20 of them.
    Now, we don't, one of the things that we cannot do is make 
a definite decision just on the basis of finding that out. We 
have to look at the overall application. And what we also do is 
ask anyone who on that application indicates that there has 
been an arrest, you know, a charge and/or, or and a conviction, 
we ask even on an arrest, you may give us an explanation, give 
us a copy of the arrest documentation, give us a copy of the 
court disposition, and give us your explanation.
    So by that same case law I can't make a decision solely on 
the basis of finding that out but I may look at the entire 
application including that information.
    Chairman McKeon. Well, I have six children and I have 26 
grandchildren, and I've led a pretty sheltered life.
    I mean, I've heard things in the last few years, or you 
watch TV and you see different episodes of, you know, they 
portray real life, and you find out about sexual predators and 
sexual molesters, and I just, I really didn't know that went 
on, and, I mean, until--when our children were young, I wasn't 
even aware of these kind of things. But now we have a 
granddaughter staying with us, she came Saturday, she'll be 
with us, a 10-year-old little, pretty little girl that will be 
with us for a week, and our bedroom is upstairs and we have a 
guest bedroom downstairs where she's staying, and I was helping 
my wife make the bed, and I said, ``You think she'll be safe 
down here? You know, this is a ground level. Somebody could 
break in one of these windows.'' I mean, that is something that 
years ago I never even would have thought of, and then we 
figured, well, nobody will know she's here, you know, we're 
probably OK, but that's--it's a scary thing that we have to 
even think about things like that, but, you know, we've seen 
things where people have been stolen right from their home, 
right when they have a sister in the room with them. I mean, we 
live in some really tough times, so I again want to commend Mr. 
Porter for bringing this legislation and for you for being here 
to testify today.
    And I think you've given us some real good, some real good 
additions I think that could be made, changes that could be 
made in the legislation. And that's the process. That's why we 
have hearings, is to see how we can look at the proposals, if 
there are ways that we can improve them, and also to get some 
publicity so we can get information out so we start building 
support and groundwork for these.
    I think the comment was made, why don't we have something 
like this already and why would it be so hard to get something 
like this passed. Well, out of the 435 members in the House of 
Representatives I know that there will be--there is always 
somebody that is opposed to something. That's just the way it 
is works. And that's how it should work. That's the system. And 
so it takes--it's difficult getting things passed. Even things 
that you would think that nobody would oppose, you'll find that 
there will be some people that--on the other side that, why 
should we take away people's privacy? Why don't we protect 
people from these kind of things.
    But my personal feeling is I would protect the children 
over anything else, and I think of our grandchildren, I think 
of your children, grandchildren, nieces, nephews, all children 
that we send to school and expect that there they would be 
protected and kept from harm and then find that maybe we're 
sending them into harms way. That's something that really, 
really concerns me, and I commend you for moving on this.
    Let me ask, what is the typical time period for background 
checks on a teacher that you're hiring.
    Dr. Rice. Mr. Chairman, what happens is we send it to--
through our school police, and they send it to the Central 
Crime Repository, and then it's sent to the FBI, and 
approximately 3 months, there's a 3-month lag time.
    So when we're making offers, we begin in December, 
sometimes even earlier, making offers for the following year, 
and what we require is that fingerprint cards be sent back with 
the acceptance of our offer trying to get a jump on that 3-
month period.
    We also require that all student teachers coming into our 
schools and all practicum students coming into our schools to 
observe also be fingerprinted in addition to volunteer coaches 
and people like that.
    Chairman McKeon. You make the offer before you get the 
fingerprint.
    Dr. Rice. What we do is make the offer, and we will not--we 
don't accept the offer in most cases without the fingerprint 
card, and those fingerprint cards have to come back through an 
authorized police agency.
    Sometimes the people will send back the offer and then we 
have to scamper in order to get the fingerprint, you know, the 
fingerprints.
    Last year our Legislature did not adjourn and did not pass 
our funding until the end of July. We were hiring 800 teachers 
after the end of July. That did create a problem for us as far 
as that lag time, but normally we get as many of those as we 
possibly can as early in the season as we possibly can.
    Chairman McKeon. Do you think this legislation would 
increase that lag time, would be--would exacerbate the problem.
    Dr. Rice. I am--Mr. Chairman, I am confident that with the 
technology that is available to us, that that should not be a 
problem. And I would say that if it were a problem, it would 
certainly be worth the while of the entire country to hire 
additional people, or even to buy additional computers, in 
order to allow this to happen.
    I can't believe that we have a situation in 2004 where 
we're testifying that we need this. It seems like it should 
have been here in 1000 rather than, you know, in 2004. So even 
if it did exacerbate the problem, we need to find solutions, 
because this has to be passed.
    Chairman McKeon. I would think that when you stick your 
credit card in to buy gasoline and they can authorize it that 
quickly, we should be able to--the technology is there that we 
should be able to solve that problem.
    Thank you very much. Mr. Porter.
    Mr. Porter. Thank you, Mr. Chairman.
    When I first heard about the problem, I think it was 
probably Mitch Fox, I think Mitch has left the room, but Mitch 
told me I had to get a hold of Dr. Rice as soon as possible 
because George Ann had an idea and a problem. I'll be honest 
with you, I was shocked, I was shocked that we weren't able to 
get the proper information to check on teachers.
    Now, in fairness, we have some great teachers and we have 
phenomenal teachers that have hearts of gold and go the extra 
mile and invest in the classroom and invest in the kids, but 
there are a few out there slipping between the cracks, and 
again, as a parent, I was shocked that we didn't have some 
check and balance.
    Dr. Rice, explain to me and for the Committee the dollars. 
It costs what, 70, $80 or something per check, isn't it pretty 
reasonable.
    Dr. Rice. Mr. Chairman, Mr. Porter, I believe it costs 
around 40, $45 for the FBI and for the Central Crime 
Repository, that's how much, and we even take that from the 
teacher's salary over an extended period of time so it is not a 
burden.
    Oh, I had an important point and it's gone.
    Mr. Porter. So if I may help you a moment, the $45 that is 
paid for by the applicant, by the teacher themselves, but it's 
over a period of time.
    Dr. Rice. That is correct.
    Mr. Porter. So the actual hard cost to the district is 
really minimal other than a staff time, which you do it 
electronically, or do you submit it through the mail, or how do 
you submit the request.
    Dr. Rice. We submit it. We had the--we're buying, and we 
bought a number of them already, the electronic, where you put 
your hand on the glass and it's sent electronically, but we 
also still receive the manual ones because two thirds of our 
teachers, actually three quarters or 70 percent of our teachers 
are actually coming from out of state, so however we're able to 
get those fingerprints, and most of the time of course it would 
be by card, by actual rolling of the prints, but here locally 
we do it by the hand on the glass. I'm not sure what that 
technology is called, but that's the way we do it.
    Mr. Porter. Do you remember if that was expensive, that 
technology.
    Dr. Rice. I believe that ran about $7,000 per machine. And 
we first saw those in LA, at LA Unified, where they do, as far 
as I know, all of their fingerprinting. I think at the time 
they had approximately 12 of those machines, and we came back 
and looked into that and thought that that was a much better 
way to go than what we were doing.
    Mr. Porter. The process is such that it takes about 90 
days, did you say, to get the information back, is that 
correct.
    Dr. Rice. That's approximately what it's been running.
    Mr. Porter. And that is prior to using the new hand scan, 
that's the manual check, or do we know the--
    Dr. Rice. That's correct, and I'm not sure how long it's 
taking with the ones that we're actually sending.
    Now, we can get from our local Metropolitan Police, we can 
get that report turned around in a matter of hours, because we 
do go through our own school police. It's not like we as a 
school district are submitting directly, it's through our own 
school police to the Nevada Highway Patrol and then to the FBI. 
So things are being checked along the away.
    One of the things a number of years ago that we asked that 
the Nevada Highway Patrol do, and a bill was actually passed, 
was that if there is a check on a school district employee, and 
the point I want to make is the point that the Chairman just 
made, that 99 and 9 tenths of our teachers this is not an 
issue, and I want to make that very clear, this is not an issue 
for 99 and 9 tenths percent of our people, but if even one gets 
through, then it's worth the time of everybody involved and 
it's certainly worth the passage of the bill to ensure that 
even one does not get through.
    But that is submitted, and the bill that we put before the 
State Legislature that was passed is that if any school 
district in Nevada submits fingerprints and there is a later 
addition or hit to that particular record, that that school 
district would be so informed. Because unless there is 
reasonable cause, we can't later fingerprint someone on a 
regular basis, and so we said if a school district checks on 
any employee or any volunteer and later there is an entry into 
that record concerning the particular criminal offenses that 
we've talked about, that the school district would be notified.
    And so that's an important thing, too, because it may be 
years between fingerprinting and you're not sure, you know, 
what's happened along the way.
    But I think that might be too ambitious, maybe we can come 
back and visit that after this is passed.
    Mr. Porter. Dr. Rice, in your travels nationally with the 
different districts, what do you sense is the problem for those 
that don't comply with this? Why aren't districts doing this.
    Dr. Rice. Mr. Porter, Mr. Chairman, the way that we even 
knew about this is one of our administrators went to a national 
conference called NASDAC, and that is the national association 
that deals with licensure. They had an FBI person speak at one 
of the workshops. The FBI person announced to the personnel, 
school district personnel people who attended that meeting, 
that he had something that would really jolt them. Did they 
know, and he gave this information. And my colleague said that 
all the air in the room disappeared as people gasped, because 
no one knew this was going on. And I do not think that people 
connect the fact that their legislature has to pass this with 
the fact that their children, you know, that they may have 
employees, school district employees, teachers, support staff, 
administrators, whose backgrounds have not been adequately 
checked because of the need to pass this law.
    I think there is a disconnect between me and my personnel 
function and knowing that the state legislature has to pass 
this so that the FBI will release this data for non-judicial 
purposes. I think there's a disconnect, and our superintendent 
just stepped down as the president of the Council of Great City 
Schools, and I've asked him if he can bring it to their 
attention as well as all of the member districts that this is 
something that we really all need to rally behind because it is 
so vital.
    Mr. Porter. I have found that historically when it comes to 
education, there is a lot of turf. You have local governments 
that think that, well, education isn't my job so they don't 
really always get engaged. And you find maybe even legislatures 
at times have their own thing going, and they assume that the 
districts are doing everything that they're supposed to be 
doing. But I think in the last couple of years we're starting 
to see more of a global approach to education.
    I would assume that part of the problem would be that a lot 
of the districts just assume someone else is doing it, maybe 
someone else is checking the background, and not unlike, I 
guess, applying for a credit card, if that individual does not 
have a record of bad credit, that the credit card company or 
the bank or the business isn't able to track that information. 
So I guess part of the reason for the penalties that were in 
the language of the bill was to have some encouragement other 
than please, because please really hasn't been working.
    Are there some other areas that you think that we could 
look at, as our guest panelists today, other than from a 
funding perspective, and again every district in the country 
needs additional funding, and I understand the concern when we 
look at reducing funding, but would you have any other ideas to 
encourage the districts to reach out beyond their normal focus 
and get engaged in this to help, you know, protect our 
children?
    Dr. Rice. Mr. Chairman, Mr. Porter, first of all let me say 
that I think the problem is not that they are assuming someone 
else is doing it, I think they are assuming they are doing it, 
and when they get the fingerprint, the report back, they're 
assuming that that contains all of the information.
    I think probably, and this would be in combination with the 
passage of a bill mandating that this happen, I think 
publicity. I think that if school districts became aware 
through the PTA, through the PTO, through the Council of Great 
City Schools, that this is happening and that their legislature 
needs to pass this bill if that's required, or maybe, I don't 
know if there's a possibility that maybe this could happen 
without the passage of that bill, that it--Congress could 
change its mind and say that this will happen without the 
passage by each state legislature for school districts only, 
I'm not talking about non-judicial causes for Caesars Palace to 
hire people, I'm talking about people who are going to be 
working with children and for children. And so I would say that 
maybe if there's a possibility of changing that bill or 
overruling that part as it deals with school districts, and 
then I would say the publicity each of us, the PTA, the Council 
of Great City Schools, the National School Principals, 
Secondary School Principals, all of us need to make sure that 
the word is out that until, unless we can overrule that 
particular law, that until this is done, we're not getting 
complete information, and even if one state doesn't pass it, 
then we're all in jeopardy.
    Mr. Porter. I would wish for nothing more than to not have 
to have legislation to mandate or/encourage districts, and I 
would concur from your testimony this morning it may well be 
that they just don't understand what information they're not 
getting, but what do you do now then if the individual is 
applying from a state that's not in the 21? What do you do with 
that individual.
    Dr. Rice. Not being--Mr. Porter, Mr. Chairman, not being in 
the 21 is really--doesn't solve our problem because like I was 
saying, we just wouldn't recruit in those 29 states, if that 
would solve our problem, we would only go to recruit in those 
21. But we have no guarantee that that person that we're 
recruiting hasn't lived in five other states, four of which do 
not report, and so it has to be all of us in order to close 
that loophole.
    Mr. Porter. Yes.
    Ms. Lark. I would just like to add that I believe that you 
need to approach it from all fronts. If, in fact, your school 
board are your policymakers, and your superintendents should be 
the most knowledgeable in areas of this nature, and they are 
informing school boards, school boards need to, I believe, take 
some strong action to put pressure on state legislators 
throughout the nation, and there are organizations designed to 
address these kinds of issues, and your support in the form of 
legislation should be going on simultaneously. I feel we take 
it from every approach, every organization. I'm a member of the 
Elementary Principals Association, and I will certainly be 
bringing that to their attention. I honestly believe it was 
lack of knowledge that led us to the point that we are today.
    Mr. Porter. Carol, what happens in the classroom or in the 
schools now if you hear of an individual that may have been 
involved in pedophile or sexual predators.
    Ms. Lark. It is such a serious issue that we immediately 
turn it over to the police authorities. There is a complete 
investigation done immediately. There's not a minute lost 
because our children's safety is at stake.
    Granted, we're very, very concerned because so is that 
teacher's career at stake, and we value the credibility of both 
sides of the issue, but it would be thoroughly investigated 
immediately.
    Mr. Porter. It's tragic the impact on an innocent 
individual.
    Ms. Lark. Oh, it is, it's tragic.
    Mr. Porter. I can imagine it would ruin their career. 
That's why it's very, very sensitive.
    But let's assume for a moment that we find another state 
that an individual was charged but plea bargained and was able 
to leave. Is that information that you think you should have or 
not.
    Ms. Lark. I'd like to defer that answer to our attorney, 
colleague here.
    Dr. Rice. Mr. Chairman, Mr. Porter, we do need to know that 
information about arrest. We need to have the complete 
information concerning arrest. We can then investigate further 
to see if there has been a charge or a conviction.
    I might tell you when Carol says that we turn that 
information over to the authorities, we also suspend that 
person, we remove them from the classroom until we have 
assurances that there is no danger.
    But again I want to emphasize this is 99 and 9 tenths of 
our employees and volunteers are people who are as appalled at 
anything that they hear of this nature as we are. And so we 
need to keep that in mind, too.
    Mr. Porter. Assuming the system is working well and you're 
doing the background check and you have all the right 
information and you find that someone may have a challenge in 
their past, what happens then, and I guess No. 2, how often 
does that happen? Again, if the system is properly in place, 
how many times do you find someone that has had a charge and 
they've been arrested, and if they have, what do you do.
    Dr. Rice. On the application we ask those approximately 20 
questions concerning this very same thing, and again on the 
reference form we ask that.
    If indeed a person does come forward and gives us the 
explanation, the arrest record, the court disposition 
documents, all of that information, then that plays into our 
decision. And I can tell you if it involves sex-related abuse, 
anything of that sort, violence, anything of that sort, then 
that weighs very, very heavily in our decision. The case law 
prevents me from saying that would eliminate someone, but that 
weighs very, very heavily in our decision.
    If indeed someone does not tell us on the application, they 
do not self-report, no one of their references is aware or 
willing to come forward with that information, then we get, in 
this perfect world, the FBI report. Then we have them, not 
because they've committed the offense, but because they've lied 
on the application, and so what we do is remove them, and 
generally that would be a termination offense.
    Mr. Porter. What about existing employees? You touched upon 
this a little but, you can't do a check again, so what do you 
do about your existing staffing.
    Dr. Rice. What we try to do, again through the Nevada 
Highway Patrol, was to say, to have in place that if there is a 
subsequent hit on that record or a subsequent addition to that 
record, that that would be reported to us by the Nevada Highway 
Patrol. As far as I know, we've never received anything, so it 
could be that everyone is behaving as they should, all of us, 
or it could be that maybe something is wrong with our system, 
but that was passed a number of years ago in our legislature.
    What we would like to do is to have every time that a 
person renews their license, we would like for the state to 
require fingerprinting. Otherwise, we have to have reasonable 
cause for, you know, to look into something of that sort.
    Chairman McKeon. I'd just ask, how often do they renew 
their license.
    Dr. Rice. If they have a bachelors degree, it's every 5 
years, a master's every six, a doctorate every ten.
    Chairman McKeon. OK.
    Mr. Porter. Thank you.
    Mrs. Stutz, from a National PTA perspective, you mentioned 
that this is a high priority. What do you think that we can do 
as Members of Congress to help elevate the importance of this 
and as a priority to districts? Is there something that we can 
be doing separate from passing laws.
    Ms. Stutz. Well, of course passing the law is something 
that we're really encouraged about. But once again, I think 
that Dr. Rice has hit on it very well, is getting the publicity 
out, letting parents know that--if you can get parents behind 
you and get them really onto something, miracles happen. It's 
amazing how quickly things can move along. This is something 
that is near and dear to parents' hearts and they're very 
protective of their children in this area, and I think that 
with the right publicity you would see an upswelling of support 
that would be maybe amazing even to you.
    Mr. Porter. The classroom itself, Ms. Lark, we touched upon 
it a moment ago and I want to add something for the record, 
that your school is currently meeting the average early 
progress standards of No Child Left Behind, which is pretty 
amazing, congratulations, but have you experienced in your 
professional career a staff person that has been charged or 
arrested with this type of behavior.
    Ms. Lark. In my 14 years I had one reason to suspect, based 
on something that a child reported, and that teacher was 
investigated immediately, and when the investigation was 
completed, the child, it was a fifth grade girl, and she 
admitted that she made the whole thing up and that there was no 
factual basis for that, and I felt very sad that the poor 
teacher had to go through that entire investigation, that 
entire experience. But those things will happen, and on the 
side of being safe, again, we will always investigate. But I've 
only had the one experience.
    Mr. Porter. Thank you.
    Chairman McKeon. What happened to the teacher in that 
situation?
    Ms. Lark. They remained in our school district doing an 
excellent job.
    Chairman McKeon. And they were exonerated?
    Ms. Lark. Exonerated totally.
    Chairman McKeon. And people accepted that.
    Ms. Lark. Yes, I believe so.
    Chairman McKeon. Let me ask, does the NEA, have they taken 
a position on this, do you know.
    Dr. Rice. Mr. Chairman, as far as I know, they were not 
aware of the bill until recently, and they have not taken a 
position that I'm aware of.
    I do know in informal discussions that our local 
association has not taken a position either but have expressed 
some concerns about the funding connection and the suspicion 
reference, but they have not taken an official position and no 
one with authority to take that position has spoken to me.
    This is just rumblings that I hear.
    Chairman McKeon. This would be very important.
    I know I've sponsored a bill that they wanted, that the NEA 
wanted, and the California Teacher's Association wanted. In 
fact, they loved me for this bill.
    In California if you--
    Mr. Porter. It didn't help me, Mr. Chairman, but I like the 
bill.
    Chairman McKeon. In California, and Nevada is affected the 
same way.
    Mr. Porter. Yes.
    Chairman McKeon. Because of the retirement plan, if you 
don't pay into Social Security, then when you retire, you get 
hit on your Social Security, you know, the offset.
    Are you familiar with that--with that?
    Well, because it's so important to the NEA, they have been 
a tremendous help on the hill in getting cosponsors, and we 
have now about 300 cosponsors to that bill. So that's why I 
bring that up, because they could be very helpful or they could 
be very harmful in getting this passed, because they do have 
quite a bit of effect on the hill.
    By the way, we've introduced a different, another bill, we 
have not pulled our bill back, we're still working on it, but 
in the interim Mr. Brady introduced a bill last week that 
helps, it gets us about a third of the way there, and so I'm 
sure you've got a colleague on it and will be supporting that 
bill and we're hopeful that we can move forward on that one, 
but that would be, you know, it would be very important for us 
I think to get a meeting with them, with the NEA, and see where 
they--because if they came out in support, it would be very 
helpful.
    Mr. Porter. Can I respond to that, Mr. Chairman?
    Chairman McKeon. You bet.
    Mr. Porter. First, I'm a proud cosponsor of your bill and I 
realize the importance of making sure that the retirement 
benefits are taken care of properly and proud to be a part of 
that.
    Actually today on our agenda was Mr. Ron Lopez, who had 
agreed to testify, with the Clark County Education Association, 
so we have been communicating with the Teachers' Association.
    I sense that there is some discomfort with some of the 
points that were mentioned this morning, and I can't speak for 
the Teachers' Association, but I feel convinced that in 
concept, they support the direction that we're going, but 
they're having some challenges with a few of the points, which 
of course that's why we have the meeting, and I wish that they 
were here to testify to express their concerns, but they were 
invited and Mr. Lopez did say that he would testify, and over 
the weekend he chose not to. But know that we are communicating 
with the Teachers' Association.
    I agree it's important, especially the rank and file 
teachers out there want to make sure, as does the association, 
that we have the best, the brightest, and the safest in our 
classrooms.
    Chairman McKeon. Well, as I mentioned, nothing is easy, and 
when you do try to move legislation, like I said, I think if we 
were to have a vote here right now we could get it passed, but 
that will be things that we have to deal with as we move 
forward, and it's important that we do reach out to everybody 
that would be involved and that we do address everybody's 
concerns.
    Like I say, you brought up some really good points that I 
think would be helpful in the legislation today.
    Mr. Porter. We are in a political arena and, of course, 
it's an election year for Members of Congress, it's an election 
year for the White House, the President, plus many U.S. 
Senators. I guess my plea to the educational system nationwide 
would be to set aside partisan politics and do what is in the 
best interest of our children. And as we're again in this 
election season, I think you're going to see, I know I'm 
speaking to the choir, but we're going to see a lot of 
decisions based upon who may or may not win an election as to 
who supports what, and I would hope that this legislation would 
become a priority separate and apart from the political 
partisan bickering that we see in Washington every day that 
gets in the way of good decisions, and I believe in this 
legislation, although it's not perfect today, this is a 
concept, thank you Dr. Rice, that I pledge that we will do 
everything we can to make acceptable but also that it works to 
protect our children. But I would hope that together as we work 
on this improve, modify and compromise, which is what political 
service is all about, that we will have a successful 
legislation with your help, the PTA, the teachers, the 
administration, and families across this country.
    Thank you.
    Chairman McKeon. Well, you picked up an ally here today on 
your legislation.
    I want to thank the witnesses for your valuable time, for 
your testimony, for the work that you've put in on this and 
what you're doing to help our children. That's very, very 
important.
    If there is no further business, then, this Subcommittee 
stands adjourned.
    Mr. Porter. Thank you, Mr. Chairman.
    [Whereupon, at 11:10 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
